U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




             BUREAU OF INDUSTRY
                  AND SECURITY

 U.S. Dual-Use Export Controls for India
Should Continue to Be Closely Monitored


              Final Report No. IPE-18144/March 2007




                         PUBLIC RELEASE



               Office of Inspections and Program Evaluations
                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                    The Inspector General
                                                    Washington, D.C. 20230




March 30,2007


MEMORANDUM FOR:                Mark
                               Acting Under Secretary for Industry and Security


FROM:                                  E.

SUBJECT:                                                     Export Controls


As a follow-up to our February 23,2007,           report, attached is our final report on
use export controls for India, the eighth report required by the National Defense
Authorization Act for Fiscal Year 2000, as amended. As you know, the act mandates that
we issue a report to the Congress on the policies and procedures of the U.S. government
with respect to the export of technologies and technical information to countries and
entities of concern by March 30 of each year through 2007.

While our review found that coordination between the various federal export licensing
agencies was adequate during the dispute resolution process for export license
applications involving India, we identified several areas of concern related to
export control activities. We offer a number of specific recommendations beginning on
page 27 that we believe will help strengthen these activities, if implemented. This report
contains three classified appendixes that have been provided under separate cover.
Appendix D discusses implementation of the Next Steps in Strategic Partnership and is
classified SECRET. Appendix E is classified                         and highlights concerns
related to      end-use check program in India. Appendix contains a summary of the
classified recommendations and is classified SECRET.

We are pleased to note that BIS, in its written response to our draft report, indicated that
it plans to take action on many of our recommendations. We request that you provide us
with an action plan addressing the status of the recommendations in our report within 60
calendar days.

We thank you and other members of the BIS staff for your assistance and courtesies
extended to us during our review. If you would like to discuss this report or the requested
action plan, please call me at (202) 482-4661 or Jill Gross, Assistant Inspector General
for Inspections and Program Evaluations, at (202) 482-2754.

Attachment
U.S. Department of Commerce                                                 Final Report IPE-18144

Office of Inspector General                                                            March 2007


                                         CONTENTS 


SUMMARY ……………………………………………………………………………………... i

BACKGROUND ………...……………………………………………………………………… 1

OBJECTIVES, SCOPE, AND METHODOLOGY ……………………………………………. 10

OBSERVATIONS AND CONCLUSIONS ……………………………………………………. 13

   I. 	 Dual-Use Export Control Policies and Practices for India Are Not Fully Transparent..... 13
        A. 	 Questions remain over whether the Government of India has fully implemented
             two of the export control-related steps under the “Next Steps In Strategic
             Partnership”……………………………………………………………………..…... 13
        B. 	 BIS’ Entity List does not clearly identify some Indian entities ..…………………… 13

   II. BIS’ End-Use Check Program in India Needs to Be Improved
           (This chapter is included in classified Appendix E. The unclassified report contains
           only the introduction and subchapter headings)…………………………………..... 16
       A. The End-Use Visit Arrangement between BIS and India’s Ministry of External
           Affairs limits the effectiveness of end-use checks
       B. Government of India end-use checks are not always conducted within prescribed
           time frames
       C. End-use checks involving private Indian entities are generally conducted in
           a timely manner
       D. BIS lacks clear and consistent time frames for processing end-use checks
           for India
       E. Two cancelled pre-license checks met BIS’ criteria for an “unfavorable”
           rating
       F.	 BIS can improve its targeting of post-shipment verifications for India

   III. BIS Needs to Enhance Its Efforts to Ensure Compliance with License Conditions ….. 17
        A. Export Administration is not adequately monitoring India licenses with reporting
            conditions ………………………………………………………………………… .. 18
        B. 	Export Enforcement needs to improve its monitoring and enforcement of India
            licenses with condition 14 ..........…………………………………………………… 22

SUMMARY OF UNCLASSIFIED RECOMMENDATIONS………………………………… 27

APPENDIXES
  Appendix A:  Acronyms ..…………………………………………………………………..A-1
  Appendix B:  Flowchart of Interagency Dual-Use Export Licensing Process.……………..B-1
  Appendix C:  BIS Management Response to OIG Draft Report—Unclassified Version.….C-1
  Appendix D:  India’s Implementation of “Next Steps In Strategic Partnership”
               (SECRET)...………………………………………………………………….D-1
   Appendix E: End-Use Checks in India (CONFIDENTIAL) .....…….……………………..E-1
   Appendix F: Summary of Classified Recommendations (SECRET)..………...……....…...F-1
   Appendix G: BIS Management Response to OIG Draft Report—
               Classified Version (SECRET)………. ………………………………………G-1
U.S. Department of Commerce                                                            Final Report IPE-18144

Office of Inspector General                                                                       March 2007


                                                SUMMARY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct an 8-year assessment of whether export controls and counterintelligence
measures are adequate for preventing the acquisition of sensitive U.S. technology and technical
information by countries and entities of concern. The NDAA mandates that the Inspectors
General report their findings to Congress no later than March 30 of each year, until 2007.

To satisfy the NDAA’s FY 2007 reporting requirement, the Commerce Office of Inspector
General assessed the effectiveness of BIS’ export control program for India in conjunction with a
separate review to determine the status of prior-year recommendations involving dual-use
licensing and enforcement activities. We examined (1) whether BIS’ export control policies,
practices, and procedures for India are clear, documented, and designed to achieve the desired
goals; (2) whether BIS personnel are following the prescribed policies, practices, and procedures
relating to India; and (3) how effective BIS is in detecting and preventing the diversion of
sensitive commodities to weapons of mass destruction-related programs (either within or outside
India).

Following the nuclear tests conducted by both India and Pakistan in May 1998, the United States
imposed economic sanctions on both countries. However, in 2001, the President eliminated the
sanctions and committed the United States to a “strategic partnership” with India—representing a
major change in India-U.S. relations. At that time, both countries agreed to greatly expand
cooperation on a wide range of issues, including counterterrorism, regional security, space and
scientific collaboration, civilian nuclear safety, and broadened economic ties. Toward that end,
BIS has played an active and key role in improving relations with India. Its most direct
involvement began in 2002 with the establishment of the U.S.-India High Technology
Cooperation Group (HTCG), designed to provide a forum for discussing high-technology issues
of mutual interest and to broaden dialogue and cooperation in the area of export controls. 1

As the world’s fastest growing free-market democracy, India presents lucrative and diverse
opportunities for U.S. exporters along with unique challenges to U.S. export control policy.
In 2005 the value of U.S. merchandise exports to India totaled almost $8 billion—up 30 percent
from 2004 2 and nearly double the 2002 figure. 3 BIS reports that only about 1 percent of total
U.S. exports to India require an export license, and the agency approves most exports that do
require a license provided such items do not contribute to India’s nuclear, missile, or chemical
and biological weapons programs. Although India is recognized as a democratic partner in the
fight against terrorism and as a counterbalance to China, concerns have been raised by
nonproliferation specialists about its nuclear capabilities and intentions. As current U.S. policy
moves toward “full civil nuclear cooperation” with India, a critical question needs to be

1
  Matthew Borman, Deputy Assistant Secretary for Export Administration, Overview of U.S.-India Dual-Use Export

Policies and Procedures (presentation given to Indian industry in New Delhi on November 21, 2003). 

2
  U.S. Trade Representative, 2006, National Trade Estimate Report on Foreign Trade Barriers. Washington, D.C., 

page 300. 

3
  Department of Commerce, U.S. Commercial Service, November 29-December 5, 2006, Official Mission Statement. 



                                                       i
U.S. Department of Commerce                                                               Final Report IPE-18144

Office of Inspector General                                                                          March 2007


answered: Does the U.S. government have the capability to implement effective export controls
to help ensure U.S. exports to India do not contribute—either directly or indirectly—to Indian
nuclear weapons or missile programs?

The number of India export license applications received by BIS increased 30 percent from FY
2002 to FY 2005, but decreased 19 percent from FY 2005 to FY 2006. This decline is
attributable to a reduction in licensing requirements for exports to India. The most significant
changes occurred in 2005, namely (1) elimination of export and reexport license requirements for
most end users in India for items controlled unilaterally by the United States for nuclear
nonproliferation reasons, (2) removal of the Indian Space Research Organization (ISRO)
headquarters from BIS’ Entity List,4 and (3) elimination of licensing requirements for exports of
EAR99 items 5 to several ISRO subordinate entities.

Our review of India export license applications that were escalated to the interagency dispute
resolution process in fiscal years 2005 and 2006 found that coordination between the various
federal export licensing agencies was adequate. However, our overall review of U.S.-India
export control activities identified the following concerns that warrant management’s attention:

Dual-Use Export Control Policies and Practices for India Are Not Fully Transparent. In
January 2004, the United States and India announced the Next Steps in Strategic Partnership
(NSSP)—an agreement to increase cooperation in civilian nuclear activities, civilian space
programs, and high-technology trade, as well as to expand the U.S.-Indian dialogue on missile
defense. The initiative was to proceed through a series of reciprocal steps that built on each
other, addressing nuclear regulatory and safety issues and regulatory changes that would enhance
trade in primarily high-technology dual-use goods. 6 As the various steps were determined by the
U.S. government to be completed by India, a number of license requirements for exports to India
were removed. On July 18, 2005, President Bush and Indian Prime Minister Dr. Manmohan
Singh announced that the NSSP initiative had been completed and declared that they are
committed to transforming the relationship between the United States and India and establishing
a global partnership. 7

When the NSSP was launched, BIS helped evaluate and implement the steps set forth in the
initiative. However, questions remain among some U.S. government nonproliferation experts
about whether the Government of India has fully implemented two of the export control-related


4
  The Entity List, established in February 1997 by BIS, identifies individuals, groups, organizations, and other
entities whose activities offer the potential for diverting exported and reexported items into programs related to
weapons of mass destruction. The EAR imposes additional export license requirements for transactions involving
listed entities.
5
  EAR99 essentially serves as a “basket” designation for items that are subject to the Export Administration
Regulations (EAR) but not listed on the Commerce Control List. EAR99 items can be shipped without a license to
most destinations under most circumstances unless certain prohibitions apply (e.g., export to an embargoed
destination). The majority of U.S. exports are EAR99 items.
6
  George W. Bush, January 12, 2004. President’s Statement on Strategic Partnership with India,
http://www.whitehouse.gov/news/releases/2004/01/20040112-1.html (accessed January 31, 2007). Alan K.
Kronstadt, April 6, 2006. India-U.S. Relations, CRS Issue Brief for Congress, IB93097.
7
  Joint Statement Between President George W. Bush and Prime Minister Manmohan Singh, July 18, 2005
(http://www.whitehouse.gov/news/releases/2005/07/20050718-6.html (accessed January 31, 2007).


                                                         ii
U.S. Department of Commerce                                                  Final Report IPE-18144

Office of Inspector General                                                             March 2007


steps outlined under the NSSP. We discuss this issue and our concerns in Appendix D,
Implementation of Next Steps in Strategic Partnership, classified SECRET.

We also found a problem with BIS’ Entity List—a list of entities worldwide for which the U.S.
government requires a license for virtually all items subject to the EAR. Some Indian entities on
the list are not clearly identified, which raises the risk that U.S. exporters could inadvertently
export controlled dual-use items to these entities without the required license. The Entity List
contains 12 Indian entities identified by name along with 3 “types” of Indian end users (e.g.,
nuclear reactors not operating under International Atomic Energy Agency safeguards. At least 2
of 29 license applications were escalated to the interagency dispute resolution process in FY
2005 because of questions about whether the Indian entity on the application was covered under
one of these broad designations of end users (see page 13).

BIS’ End-Use Check Program in India Needs to Be Improved. End-use checks seek to verify
the legitimacy of dual-use export transactions controlled by BIS. A pre-license check (PLC) is
used to validate information on export license applications by determining if an overseas person
or firm is suitable for a transaction involving controlled U.S.-origin goods or technical data.
Post-shipment verifications (PSVs) strengthen assurances that exporters, shippers, consignees,
and end users are complying with the terms of export licenses, by determining whether goods
exported from the United States were actually received by the party named on the license and are
being used in accordance with license provisions. BIS has an export control officer (ECO)
stationed in India to conduct end-use checks.

Our review of BIS’ India end-use check program identified several weaknesses. First, the
September 2004 End-Use Visit Arrangement between the U.S. Department of Commerce and the
Indian Ministry of External Affairs–designed to strengthen existing commitments on export
controls—actually limits the effectiveness and utility of end-use checks in India. In addition,
while end-use checks involving Indian private sector entities are generally conducted in a timely
manner, those involving Indian government or government-affiliated entities have not always
been conducted within prescribed time frames. We also found that BIS has not set clear and
consistent time frames for two parts of its internal end-use check process: (1) initiating PSVs
upon receipt of required shipping documents and (2) notifying the Ministry of External Affairs
about end-use check requests.

Furthermore, we determined that BIS failed to follow its end-use check criteria for two PLCs that
were cancelled but should have been rated as “unfavorable” because the government entity
involved failed to cooperate in the checks. Finally, although the U.S. government is concerned
about diversions of sensitive exports to programs involving weapons of mass destruction (either
within or outside India), BIS did not adequately target PSVs to help determine whether
diversions were occurring. We detail our concerns about these issues in Appendix E, End-Use
Checks in India, classified CONFIDENTIAL.

BIS Needs to Enhance Its Efforts to Ensure Compliance with License Conditions. Placing
conditions on a license is the U.S government’s way of better controlling and monitoring certain
shipments. However, license conditions only have the desired effect when exporters and/or end
users fully comply with them. In general, BIS has put adequate procedures in place over the last



                                                iii
U.S. Department of Commerce                                                          Final Report IPE-18144

Office of Inspector General                                                                     March 2007


few years, in response to OIG recommendations, to help ensure compliance with license
reporting conditions. 8 However, we found that Export Administration and Export Enforcement,
both of which have responsibility for monitoring compliance with certain license conditions,
need to improve their implementation of these procedures.

Within Export Administration, we determined that some licensing officers did not fully adhere to
BIS procedures for requiring exporters or end users to fulfill the license reporting conditions, that
is, to submit documentation related to the shipment. For 5 of the 13 India licenses we identified
as having reporting conditions, the licensing officer did not mark the licenses for follow-up. In
addition, Export Administration issued a memorandum on May 9, 2006, requiring licensing
officers to review technical documentation submitted pursuant to a license condition if the
documentation was requested because of BIS national security concerns with the transaction.
However, the memorandum specifically excludes those licenses involving reporting conditions
placed on a license by the Defense Department unless BIS licensing officers also have a concern
with the transaction. As a result, 10 of the 13 India licenses were not marked for licensing
officer review because the technical reporting condition was placed by Defense. However, BIS
has the authority to administer and enforce the EAR and, as such, is ultimately responsible for
monitoring all conditions placed on a dual-use license. Furthermore, we determined that staff
from the Office of Exporter Services (OExS) were not fully aware of the reporting conditions
they were required to monitor, and they were not properly referring noncompliant exporters to
Export Enforcement. This breakdown in Export Administration’s monitoring process might
diminish the deterrent effect that license conditions can have on potential violators (see page 18).

Within Export Enforcement, we found that the Office of Enforcement Analysis (OEA) is not
fully adhering to its guidance for monitoring or enforcing compliance with licenses that contain
condition 14, which requires exporters to notify OEA within 30 days that a shipment pertaining
to a license has taken place. It is one of the most critical conditions placed on a license, because
the interagency licensing agencies decided that a PSV was needed to determine whether the
goods or technology were being used in accordance with the license provisions. But the PSV
cannot be initiated until the shipment has actually taken place. Our review of 24 India licenses
containing condition 14 determined that 11 exporters submitted their shipping documents to BIS
between 12 to 1,158 days after the 30-day deadline. In fact, of the cases where a PSV was
requested, 8 out of 24 PSVs were initiated more than 100 days after shipment. This delay
diminishes the possibility of detecting diversions or other violations of license terms and
conditions. We also found that OEA (1) recommended approval for additional licenses to
exporters that had previously not fully complied with the condition 14 reporting requirement, and
(2) did not refer noncompliant exporters to the Office of Export Enforcement for appropriate
action (see page 22).

On page 27, we summarize the unclassified recommendations we are making to address our
concerns. A summary of classified recommendations can be found in Appendix F, which is
SECRET.

8
 U.S. Department of Commerce Office of Inspector General, June 1999. Improvements Are 

Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488; Commerce OIG, March 2003. 

Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, IPE-15155; Commerce OIG, March

2006. U.S. Dual-Use Export Controls for China Need to be Strengthened, IPE-17500. 



                                                     iv
U.S. Department of Commerce                                                   Final Report IPE-18144

Office of Inspector General                                                              March 2007





BIS Response to OIG Draft Report and OIG Comments

In its March 23, 2007, written response to our draft report, BIS indicated that it was still in the
process of reviewing some of the recommendations while taking steps to address others. The
response also highlighted BIS’ belief that India has fulfilled its commitment under the Next
Steps in Strategic Partnership. Where appropriate, we have made changes to the report in
response to both formal and informal comments from BIS. We also discuss pertinent aspects of
BIS’ response in appropriate sections of the report. The complete responses from BIS are
included as appendixes to the unclassified and classified reports.




                                                 v
U.S. Department of Commerce                                                                 Final Report IPE-18144

Office of Inspector General                                                                            March 2007


                                               BACKGROUND 


The United States controls the export of dual-use items for national security, foreign policy, and
nonproliferation reasons under the authority of several different laws. Dual-use items are
commodities, software, and technologies that have predominantly civilian uses, but also can have
military, proliferation, and terrorism-related applications. The primary legislative authority for
controlling the export of dual-use commodities is the Export Administration Act of 1979, as
amended, which is implemented through the Export Administration Regulations (EAR). 1

The Department of Commerce’s Bureau of Industry and Security (BIS) administers the EAR by
developing export control policies and regulations, issuing export licenses, and enforcing the
laws and regulations for dual-use exports. In FY 2006, BIS had 353 full-time equivalent staff
members and an appropriation of approximately $75 million. Its two operating units principally
responsible for export controls are Export Administration and Export Enforcement.

U.S.-India Relations and Dual-Use Export Control Concerns

                                The U.S.-India relationship has undergone a significant
                                transformation since the end of the Cold War. Both countries,
                                “politically and economically distant” for almost half of the late
                                20th century, are now finding a common ground with respect to
                                their national interests. 2 As the world's fastest growing free-
                                market democracy, India presents lucrative and diverse
                                opportunities for U.S. exporters. 3 In 2005, U.S. merchandise
                                exports to India were almost $8 billion, 30 percent higher than in
2004 and nearly double the 2002 figure. Corresponding U.S. imports from India were $18.8
billion in 2005, up 20.8 percent from the previous year. 4 India is the 22nd largest export market
for U.S. goods, 5 and its requirements for equipment and services in the infrastructure,
transportation, energy, environmental, health care, high-tech, and defense sectors are expected to
exceed tens of billions of dollars in the coming years. 6

U.S. Export Control Policies and Practices Toward India

India presents unique challenges to U.S. export control policy. Although India is recognized as a
democratic partner in the fight against terrorism and as a counterbalance to China,
nonproliferation experts have raised concerns about India’s nuclear capabilities and intentions.
Following the nuclear tests conducted by India and Pakistan in May 1998, the United States

1
  50 U.S.C app. sec. 2402(2). Although the act expired on August 20, 2001, Congress agreed to the President’s
request to extend existing export regulations under Executive Order 13222, dated August 17, 2001, as extended by
the Notice of August 3, 2006, 71 FR 44551 (August 7, 2006), thereby invoking emergency authority under the
International Emergency Economic Powers Act.
2
  U.S. Department of Commerce, U.S. Commercial Service, November 29-December 5, 2006. Official Mission
Statement: Under Secretarial Business Development Mission to India. Washington, DC.
3
  With more than one billion residents, India is the second most populous country and the largest democratic republic
in the world.
4
  U.S. Trade Representative, 2006. National Trade Estimate Report on Foreign Trade Barriers. Washington, D.C.,
p. 300. Commerce, U.S. Commercial Service, November 29-December 5, 2006. Official Mission Statement.
5
  U.S. Trade Representative, 2006. National Trade Estimate Report on Foreign Trade Barriers, p. 300.
6
  Commerce, U.S. Commercial Service, November 29-December 5, 2006. Official Mission Statement.
                                                         1
U.S. Department of Commerce                                                                Final Report IPE-18144
Office of Inspector General                                                                           March 2007

imposed economic sanctions on both countries. 7 At that time, the U.S. government implemented
a licensing policy of denial for exports and reexports of items controlled for nuclear
nonproliferation and missile technology reasons to India (and Pakistan), with limited exceptions.

In September 2001, President George W. Bush waived the sanctions against India (and Pakistan)
and, subsequently, the policy of denial for exports and reexports of items controlled for nuclear
nonproliferation and missile technology reasons changed to a case-by-case review. Then, in
November 2001, President Bush and then-Indian Prime Minister Atal Bihari Vajpayee
committed the United States and India to a strategic partnership, that among other things
envisioned full civil nuclear cooperation between the United States and India and reversed
almost 30 years of U.S. nonproliferation policy toward that country. Both countries also agreed
to greatly expand cooperation on counterterrorism, regional security, space and scientific
collaboration, and broadened economic ties. Since that time, two initiatives regarding relations
between the United States and India have received wide public attention. The first was what has
become known as the Next Steps in Strategic Partnership (NSSP), announced in January 2004.
Under the NSSP, the United States and India agreed to increase cooperation in civilian nuclear
activities, civilian space programs, and high-technology trade, and expand their dialogue on
missile defense. The initiative was to proceed through a series of reciprocal steps that built on
each other. They included nuclear safety issues and regulatory changes that would enhance trade
in high-technology dual-use goods. 8

The second major announcement—coinciding with the reported completion of the NSSP—came
on July 18, 2005, when President Bush and Prime Minister Manmohan Singh jointly declared
that they were committed to transforming the relationship between the United States and India
and establishing a “global partnership.” Their statement highlighted five broad areas of
agreement and cooperation: economic development; energy and the environment; democracy
and development; nonproliferation and security; and high-technology and space. In his speech,
the President recognized India’s “strong commitment” to preventing the proliferation of weapons
of mass destruction and noted that “as a responsible state with advanced nuclear technology,
India should acquire the same benefits and advantages as other such states.” The President
added that he would “…work to achieve full civil nuclear energy cooperation with India as it
realizes its goals of promoting nuclear power and achieving energy security.” However, the
President also acknowledged that this would require adjustment to U.S. law (e.g., the Atomic
Energy Act of 1954, as amended), 9 and policy as well as international export control regimes
(e.g., Nuclear Suppliers Group, which controls items or technologies that could be used in
nuclear weapons). 10



7
  The sanctions were imposed pursuant to Section 102 (b)(2) of the Arms Export Control Act, also known as the 

Glenn Amendment of 1994. The Act requires that the President impose sanctions against a "non-nuclear-weapon" 

state if it "detonates a nuclear explosive device." 

8
  George W. Bush. President’s Statement on Strategic Partnership with India, January 12, 2004, 

http://www.whitehouse.gov/news/releases/2004/01/20040112-1.html (accessed January 31, 2007); Kronstadt, Alan

K. India-U.S. Relations, CRS Issue Brief for Congress, April 6, 2006, IB93097.

9
  42 U.S.C. 2153. The Atomic Energy Act prohibits the transfer of nuclear materials and technology to countries that 

are not signatories to the Treaty on the Non-Proliferation of Nuclear Weapons. 

10
   Joint Statement Between President George W. Bush and Prime Minister Manmohan Singh, July 18, 2005 

(http://www.whitehouse.gov/news/releases/2005/07/20050718-6.html (accessed January 31, 2007). 

                                                         2

U.S. Department of Commerce                                                                  Final Report IPE-18144

Office of Inspector General                                                                             March 2007


Toward this end, the U.S. Congress passed and the President signed the United States-India
Peaceful Atomic Energy Cooperation Act of 2006 on December 18, 2006. The act enables the
United States to enter into an agreement for nuclear cooperation with India if the President
makes a determination that various actions have occurred. 11 For instance, the President must
find that India has provided the United States and the International Atomic Energy Agency with
a credible plan to separate civil and military nuclear facilities, materials, and programs, and has
filed a declaration regarding its civil facilities and materials with the International Atomic
Energy Agency. The President must also find that India is taking the necessary steps to secure
nuclear and other sensitive materials and technology, including:

•	 Enactment and effective enforcement of comprehensive export control legislation and
   regulations;
•	 Harmonization of its export control laws, regulations, policies, and practices with the
   guidelines and practices of the Missile Technology Control Regime and the Nuclear
   Suppliers Group; and
•	 Adherence to the Missile Technology Control Regime and the Nuclear Suppliers Group
   (NSG) in accordance with the procedures of those regimes for unilateral adherence.

Finally, the act requires the President to determine that the NSG has decided by consensus to
permit supply to India of nuclear items covered by the guidelines of the NSG.

BIS’ Role in U.S. Export Control Policies and Practices Toward India

BIS has played an active role in improving relations with India. Its direct involvement began in
2002 with the establishment of the U.S.-India High Technology Cooperation Group (HTCG) by
then Under Secretary Kenneth I. Juster and India’s former Foreign Secretary Kanwal Sibal. The
HTCG was designed to provide a forum for discussing high-technology issues of mutual interest,
and broaden dialogue and cooperation in the area of export controls. 12 When the NSSP was
launched, BIS participated in evaluating and implementing the steps set forth in the initiative
while continuing its leading role in facilitating high-technology trade cooperation between the
United States and India. [See chapter I and appendix C (classified SECRET) for a detailed
discussion of the NSSP.]

According to BIS, as a result of the HTCG work and in conjunction with the NSSP, the U.S.
government eliminated approximately 25 percent of the licensing requirements for exports to
India by removing some Indian entities from the Entity List 13 and dropping most unilateral
export controls. As a result, U.S. firms can export many formerly controlled items to India

11
   These actions were specified in Section 104 (b) of the Henry J. Hyde United States-India Peaceful Atomic Energy
Act of 2006, December 18, 2006.
12
   BIS, November 21, 2003. Overview of U.S.-India Dual-Use Export Policies and Procedures, Presentation by
Matthew Borman, Deputy Assistant Secretary for Export Administration.
13
   The EAR contains an Entity List that imposes increased export license requirements for transactions involving
certain “listed” entities (e.g. companies, organizations, persons). The Entity List was established in February 1997
to inform the public of entities whose certain activities impose a risk of diverting exported and reexported items into
programs related to weapons of mass destruction. The list may also include entities sanctioned by the State
Department for which United States foreign policy goals are served by imposing additional license requirements on
exports and reexports to those entities. The list contains entities from a variety of countries including China, India,
Israel, and Pakistan. See chapter I for a discussion about Indian entities on the list.
                                                           3

U.S. Department of Commerce                                                                   Final Report IPE-18144

Office of Inspector General                                                                              March 2007


without a license or under a license exception. 14 BIS reports that approximately 1 percent of
total U.S. exports to India require an export license and that it approves most of the exports of
controlled items provided that such items would not be used in unsafeguarded nuclear activities,
ballistic missiles, or space launch vehicle programs or otherwise be diverted to uses contrary to
U.S. policy.

The United States currently controls dual-use exports to India that have potential applications for
chemical and biological, nuclear weapons, or missile technology, or that can impact regional
stability, national security, and crime control. These controls are primarily derived from
multilateral export control regimes, and the list of items controlled is mutually agreed upon by
participating countries. There are no U.S. sanctions currently in place against the Indian
government, although several Indian entities have U.S. sanctions placed on them for
proliferations reasons.

Dual-Use License Application Process for Exports to India

License applications received by BIS are entered into the Export Control Automated Support
System (ECASS), 15 where they are screened to determine whether the listed parties have
registration numbers or need numbers assigned. ECASS flags applications that require referral
to the Office of Export Enforcement (OEE), and sends them simultaneously to OEE and
licensing officers in Export Administration. All other applications are referred only to the
licensing officers for processing.

According to Executive Order 12981, 16 BIS has 9 days to conduct its initial review of a license
application, during which the licensing officer first verifies the export control classification
number (ECCN) the applicant obtained from the Commerce Control List (CCL)—a listing of
commodities, software, and technology subject to BIS’ export licensing authority. Items subject
to the EAR but not listed on the CCL are designated as AEAR99." 17

After verifying the ECCN, the licensing officer reviews the related license requirements and
exceptions, determines the reasonableness of the end use specified by the exporter, and
documents the (1) licensing history of the exporter and ultimate consignee or end users, and (2)
reasons for not referring an application to the other licensing agencies (if applicable). The
licensing officer provides a written recommendation on whether to approve or deny the
application, and refers it to the Departments of Defense, Energy, and State unless those licensing
referral agencies have delegated their decision-making authority to Commerce. 18


14
   According to the BIS, a license exception is an authorization granted by BIS that allows exports or reexports of

items subject to the EAR that would otherwise require a license.

15
   ECASS is an unclassified system that BIS uses to process and store its dual-use export licensing information. 

16
   Administration of Export Controls, December 5, 1995. 

17
   EAR99 essentially serves as a “basket” designation for items that are subject to the EAR but not specifically listed

on the CCL by an ECCN. EAR99 items can be shipped without a license to most destinations under most

circumstances unless certain prohibitions apply (e.g., export to an embargoed destination). The majority of U.S. 

exports are EAR99 items. 

18
   BIS refers licenses to the Department of Justice only when the item is controlled for reasons relating to the 

protection of encryption technologies. As such, per Executive Order 13026, the Department of Justice is a voting 

representative at all levels of the dispute resolution process for encryption cases (including the Operating

Committee, the Advisory Committee on Export Policy, and the Export Administration Review Board). 

                                                           4

U.S. Department of Commerce                                                   Final Report IPE-18144

Office of Inspector General                                                              March 2007


In addition, BIS requires that its licensing officers forward all India export license applications
(with the exception of deemed export license applications and EAR99 items without red flags) 19
to the CIA’s Weapons Intelligence, Nonproliferation, and Arms Control Center for an end-user
review.

Under Executive Order 12981, each licensing referral agency must provide a recommendation to
approve or deny the license application and all related required information to the Secretary of
Commerce within 30 days of receiving the referral. To deny an application, a referral agency or
BIS is required to cite both the statutory and regulatory basis for denial, consistent with the
provisions of the EAA and the EAR. An agency that fails to provide a recommendation within 30
days is deemed to agree with the decision of the Secretary of Commerce (see appendix B for a
flow chart depicting the licensing process).

In FY 2006, all export licenses for India were issued with conditions that subjected the exporter
to certain restrictions. The conditions are primarily used to control proliferation of the
commodity by limiting the end-use or restricting access to the commodity to specific end users
(see chapter III for more discussion on license conditions).

Dispute Resolution Process for India Export License Applications

If there is disagreement on whether to approve a pending license application after the 30-day
review period or if there is disagreement on the conditions of approval, the application is referred
to a higher-level interagency working group called the Operating Committee (OC), which meets
                                                        weekly (see figure 1 for the number of
 Figure 1: Determinations for India Export              India export license applications
 License Applications Escalated to the                  escalated to the OC in FYs 2005 and
 Operating Committee (FY2005 and 2006)                  2006). Under Executive Order 12981, the
                                                        OC has voting representatives from the
      20                                                Departments of Commerce, Defense,
               18
                                                        Energy, and State. Nonvoting members
       N u m b e r o f A p p lic a t io n s




      15                                                of the OC include appropriate
                   10       10                          representatives of the CIA and the Joint
      10                                                Chiefs of Staff. The Secretary of
                                                        Commerce appoints the OC chairman,
       5                                      2         who considers the recommendations of
                                 2        1             the referral agencies before making a
       0                                                decision. With one exception, the
              Approved      Denied      Returned        chairman’s decision does not have to
                                      Without Action    follow the recommendations
                  FY 2005   FY 2006
                                                        of the majority of the participating
                                                        agencies, though we found that the
 Source: BIS
                                                        chair’s decisions for India cases generally




19
     Red flags indicate possible violators or violations of the EAR.
                                                             5

U.S. Department of Commerce                                                                    Final Report IPE-18144

Office of Inspector General                                                                               March 2007


did reflect interagency consensus. 20 If any of the voting agencies disagree with the OC decision,
they have 5 days to appeal.

Appeals at the OC level escalate the decision to the Advisory Committee on Export Policy
(ACEP). The ACEP meets monthly if there are applications to decide. It is chaired by the
Commerce Assistant Secretary for Export Administration and consists of Assistant Secretary-
level voting representatives from the Departments of Defense, Energy, and State. Nonvoting
representatives are drawn from the CIA and the Joint Chiefs of Staff. The ACEP’s decision is
based on a majority vote. In FY 2005, one India export license was escalated to the ACEP; it
was ultimately approved with conditions. Two India export license applications were escalated
to the ACEP in FY 2006, and both were approved with conditions.

An agency that disagrees with an ACEP decision has 5 days to appeal to the Export
Administration Review Board (EARB). The Secretary of Commerce chairs the EARB, whose
voting members also include the Secretaries of Defense, Energy, and State. The chairman of the
Joint Chiefs of Staff and the director of Central Intelligence are nonvoting members. The
EARB=s decision is based on a majority vote and a dissenting agency has 5 days to make a final
appeal to the President. No export license application for India was escalated to the review
board in either FY 2005 or FY 2006.

Overall, we found that the interagency escalation process for disputed India export license
applications allows dissenting agencies a meaningful opportunity to seek additional review of
such cases.

India Export License Application Trends

During FYs 2002 through 2004, the number of dual-use export license applications received for
India increased approximately 56 percent from 784 to 1,226. However by FY 2006, this number
dropped by approximately 30 percent (see figure 2). Of the 18,698 export license applications
BIS received during FY 2006, 827 (approximately 4.4 percent) were for exports to India. A
reduction in the number of dual-use export license applications for India is attributable to fewer
license requirements, as a result of the NSSP and the ongoing work of the HTCG.




20
 Executive Order 12981, as amended, provides one exception to this rule for “ . . . license applications concerning
commercial communication satellites and hot-section technologies for the development, production, and overhaul of
commercial aircraft engines . . . .” For these applications, the OC chair is to report the “majority vote decision of the
OC” rather than his/her decision.
                                                           6
U.S. Department of Commerce                                                                                                               Final Report IPE-18144

Office of Inspector General                                                                                                                          March 2007


Figure 2: Export License Applications BIS Received for India


                                               1,400
                                                                                                            1,226
                                               1,200

                                                                                                                                1,021
                      Number of Applications




                                                                                         989
                                               1,000

                                                                                                                                                         827
                                                800
             784


                                                600


                                                400


                                                200


                                                     0

                                                                FY2002               FY2003                FY2004              FY2005                FY2006

                                                                                           Applications Received for India


Source: BIS


Based on the number of export license applications BIS processed for India during FY 2006, 587 

were approved, 39 were denied, and 189 were returned without action (see figure 3 for a 

breakdown of BIS’ determinations for these licenses). 


Figure 3: India Export License Applications Processed by BIS

                                           1000
                                                                       907


                                               800
                                                                             694
   Number of Applications




                                                                 598               587
                                               600

                                                          422
                                               400
                                                                                                                                    279         264 307
                                                                                                                                          229
                                                                                                                                                          189
                                               200
                                                                                                81         103
                                                                                                     72          69
                                                                                                                      39
                                                 0
                                                                   Approved                               Denied                Returned Without Action
                                                           FY2002                  FY2003            FY2004                FY2005               FY2006

Source: BIS




                                                                                                     7

U.S. Department of Commerce                                                               Final Report IPE-18144

Office of Inspector General                                                                          March 2007


Trends in Technologies Sought by India Through the Export Licensing Process

Most of the export license applications for India in FY 2006 involved technologies categorized
under materials, chemicals, “microorganisms,” and toxins; materials processing;
telecommunications and information security; and computers (see table 1 for a full listing of the
number of export license applications BIS received for each CCL category).

Table 1: BIS License Applications for India by CCL Category (in FY 2006)
                                                                                                   Applications*
   CCL                                                                                              Received in
 Category                                  Description of Category                                    FY2006
     0       Nuclear Materials, Facilities, and Equipment                                                 8
     1       Materials, Chemicals, “Microorganisms,” and Toxins                                         225
     2       Materials Processing                                                                       208
     3       Electronics                                                                                 95
     4       Computers                                                                                  130
     5       Telecommunications and Information Security                                                206
     6       Lasers and Sensors                                                                          22
     7       Navigation and Avionics                                                                     56
     8       Marine                                                                                       2
     9       Propulsion Systems, Space Vehicles, and Related Equipment                                   55
  EAR99 Classification used for items subject to the EAR but not listed on the CCL                      147
*Note: Because applications may contain a request to export more than one technology, the number of
applications in this column does not equal the total number of India export applications BIS received during FY
2006.
Source: BIS

End-Use Checks in India

End-use checks play an important part in the export licensing process by helping BIS determine
whether the end users or intermediary consignees are suitable recipients of sensitive U.S. items
and technology and would likely comply with applicable license conditions. End-use checks
include either pre-license checks (PLCs) or post-shipment verifications (PSVs) and may be
requested by any of the executive agencies involved in the interagency licensing process. A PLC
is conducted to establish the bona fides—or evidence of the qualifications—of a foreign entity
involved in the export transaction while the license application is being reviewed. A PSV is
conducted on a foreign entity after the license has been approved and the item shipped to help
determine whether the licensed item is being used in accordance with license conditions.

The U.S. Department of Commerce and the Indian Ministry of External Affairs entered into an
End-Use Visit Arrangement in September 2004. Since November 2004, end-use checks in India
have been conducted by an export control officer (ECO) based in New Delhi. ECOs are BIS
export enforcement agents who hold the rank of commercial officer in the commercial section of
U.S. embassies and consulates. 21 In addition to conducting end-use checks, they handle various
other in-country export control activities.

21
 BIS has additional ECOs stationed in Abu Dhabi, United Arab Emirates; Moscow, Russia; Beijing, China; and
Hong Kong.
                                                        8

U.S. Department of Commerce                                                                Final Report IPE-18144

Office of Inspector General                                                                           March 2007





                                          (see Chapter II for more discussion on the targeting of end-
use checks).




                                                                                                  A Sentinel trip is
performed by domestic BIS export enforcement agents, largely to conduct PSVs. Often, Sentinel teams target some
checks that are not requested by licensing officers or other U.S. government officials. Usually, the Sentinel checks
involve conducting multiple PSVs at the same entity (so the team—and in this case the ECO in New Delhi—can
group multiple checks at the same location), whereas headquarters-initiated checks usually involve conducting only
one check at one entity. Therefore, in addition to conducting the end-use checks that were requested by BIS
headquarters in FY 2005, the ECO conducted                                    .
                                                         9

U.S. Department of Commerce                                                          Final Report IPE-18144

Office of Inspector General                                                                     March 2007


                        OBJECTIVES, SCOPE, AND METHODOLOGY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the director of Central Intelligence and the director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct eight annual assessments through FY 2007 of the adequacy of current export
controls and counterintelligence measures in protecting against the acquisition of sensitive U.S.
technology and technical information by countries and entities of concern. This is the eighth and
final review under the NDAA requirement.

To satisfy the NDAA’s FY 2007 reporting requirement, the Commerce Office of Inspector
General assessed the effectiveness of BIS’ export control program for India in conjunction with a
review to determine the status of prior-year recommendations involving dual-use licensing and
enforcement activities.23 We examined (1) whether BIS’ export control policies, practices, and
procedures for India are clear, documented, and designed to achieve the desired goals; (2)
whether BIS personnel are following the prescribed policies, practices, and procedures relating to
India; and (3) how effective BIS is in detecting and preventing the diversion of sensitive
commodities to weapons of mass destruction-related programs (either within or outside India).

We conducted our evaluation from June through November 2006 under the authority of the
Inspector General Act of 1978, as amended, and in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency in 2005. At the end of
our review, we discussed our findings and conclusions with the Acting Under Secretary for
Industry and Security and other senior BIS officials.

Our methodology included the following activities:

U.S. Interviews. Within BIS, we spoke with the Acting Under Secretary, Deputy Assistant
Secretary for Export Administration, and the Assistant Secretary and Deputy Assistant Secretary
for Export Enforcement. Within Export Administration, we met with the director of the Office
of Exporter Services (OExS), the directors of the Offices of Nonproliferation and Treaty
Compliance and National Security and Technology Transfer Controls, as well as with staff from
each office. Within Export Enforcement, we met with the director and staff of the Office of
Export Enforcement (OEE) and the Office of Enforcement Analysis (OEA). We also spoke with
staff from OEE’s Boston field office regarding closed investigations involving Indian entities. In
addition, we met with the chairperson of the Operating Committee, the policy advisor to the
Assistant Secretary for Export Administration, the Export Administration Intelligence Liaison,
and staff from BIS’ Office of Chief Counsel.

We spoke with officials from federal agencies directly involved with or knowledgeable about U.S.
dual-use export control policies and procedures related to India. Within the CIA, we spoke with
analysts from the Center for Weapons Intelligence, Nonproliferation, and Arms Control. Within
the Department of Defense, we spoke with officials from the Defense Technology Security
Administration. Within the State Department, we interviewed staff from the Bureaus of South and
Central Asia; International Security and Nonproliferation; and Political-Military Affairs, and

23
 A separate report on the status of all open recommendations resulting from Commerce OIG’s NDAA reporting
will be issued in March 2007.
                                                     10
U.S. Department of Commerce                                                          Final Report IPE-18144

Office of Inspector General                                                                     March 2007


attended meetings of the Missile Technology Export Control Group and Subgroup on Nuclear
Export Coordination. Within the Department of Energy, we met with officials from the Office of
International Regimes and Agreements.

Overseas Visit. We also traveled to India to assess U.S. dual-use export control operations. At
the post, we interviewed officials at the U.S. embassy in New Delhi. We met with BIS’ ECO
and accompanied him on two end-use visits to Indian entities located in Chennai and Bangalore
(a representative from India’s Ministry of External Affairs was also present at the end-use visit in
Chennai).

We also spoke with the Commercial Service’s (CS) deputy senior commercial officer in India
and the two commercial specialists who currently assist the ECO. In addition, we spoke with the
                                               embassy’s deputy chief of mission and the
                                               heads of the consular; defense; economic;
                                               environment, science, technology, and health;
                             CHINA             and political sections; and other relevant U.S.
                                               government officials. 24 Finally, we met with
                                               Government of India officials from the Defence
                                               Research and Development Organization and
                                               the Indian Space Research Organization to
                                               discuss the progress of end-use visits in India
                                               and obtain the Indian government’s views on
                                               some aspects of U.S. dual-use export controls.

                                                         While in India, we also met with representatives
                                                         from two leading Indian industry associations—
                                                         the Confederation of Indian Industry and the
                                                         Federation of Indian Chambers of Commerce—
                                        Sites visited    to discuss U.S. export controls and their efforts
                                    by the OIG team
                                                         to promote U.S. and India export control
                                                         compliance among Indian companies.
Source:https://www.cia.gov/cia/publications/factbook/
geos/in.html


Review of export control laws and regulations, relevant BIS guidance, and other
documents. We examined current and prior legislation, executive orders, policy papers, and
related regulations (including the EAR) that pertained to India. In addition, we reviewed the
following documents, covering the period of FYs 2005 and 2006 (unless otherwise indicated):

     •	 Complete licensing histories for 43 India cases escalated to the OC and ACEP
     •	 Records for 106 India end-use checks (including applicable licensing histories) that were
        initiated or completed (for FY 2005 we only reviewed those checks that received ratings
        other than favorable)
     •	 Sentinel trip reports from July 2000 to December 2003
     •	 Program material related to the roles and responsibilities of the ECO in India

24
 During our visit we were unable to meet with Homeland Security’s Immigration and Customs Enforcement attaché
because the position was vacant.
                                                        11

U.S. Department of Commerce                                             Final Report IPE-18144

Office of Inspector General                                                        March 2007


   •   ECO’s subject matter files at post relating to export controls
   •   Summaries of 124 India technology licenses for FYs 2005-2006 (through April 30, 2006)
   •   BIS directives and procedures related to license monitoring
   •   Relevant cable traffic and intelligence reports pertaining to India




                                            12

U.S. Department of Commerce                                                                    Final Report IPE-18144

Office of Inspector General                                                                               March 2007


                                OBSERVATIONS AND CONCLUSIONS 


I.       Dual-use Export Control Policies and Practices for India Are Not Fully Transparent

The 2001 commitment by the United States and India to form a “strategic partnership”
envisioned, among other things, full civil nuclear cooperation between the two countries and
reversed almost 30 years of U.S. nonproliferation policy towards India. When the NSSP was
launched in January 2004, BIS participated in evaluating and implementing the export control-
related steps set forth in the initiative. As a result of the NSSP and in conjunction with the U.S-
India High Technology Cooperation Group (which is co-chaired by BIS), the U.S. government
eliminated approximately 25 percent of the licensing requirements for exports to India by
removing some Indian entities from the Entity List and dropping most unilateral export controls.
Thus, U.S. firms can export many items that formerly required a license to India without a
license or under a license exception. Although the United States and India announced in July
2005 that the objectives of the NSSP had been completed, questions remain over whether the
Government of India has fully implemented two of the export control-related steps outlined
under the agreement.

We also found a problem with the listing of Indian entities found on BIS’ Entity List.
Specifically, some Indian entities meant to be captured on the list are not clearly identified. As a
result, U.S. exporters could inadvertently export dual-use controlled items to these entities
without the required license. 25

A.	   Questions remain over whether the Government of India has fully implemented two of
      the export control-related steps under the “Next Steps In Strategic Partnership”

Due to the classified nature of the material discussed in this section, we offer our specific
findings and recommendations in Appendix D, which is classified at the SECRET level.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report, BIS stated that it believes that India has fulfilled its
commitments under the NSSP. BIS’ specific comments and our response are provided in the
classified section of this report.

B.	   BIS’ Entity List does not clearly identify some Indian entities

BIS established the Entity List, a supplement to the EAR’s export license requirements, in
February 1997 to inform the public of entities whose activities impose a risk of diversion of
exported and reexported items into programs related to weapons of mass destruction (WMD). In
conjunction with the 1998 economic sanctions against India for its nuclear tests, BIS increased

25
  A license is required for the export or re-export of all items subject to the EAR for most of the Indian entities on
the Entity List. In addition, the nuclear end-use/end-user control in Section 744.2 of the EAR imposes a license
requirement on all exports to three activities, one of which is “unsafeguarded” nuclear activities. This license
requirement exists independent of the license requirements imposed by the Entity List.
                                                           13

U.S. Department of Commerce                                                                     Final Report IPE-18144

Office of Inspector General                                                                                March 2007


the number of Indian entities on the list from 4 to more than 200. According to BIS, these
additional entities were “determined to be involved in nuclear or missile activities.”

In March 2000, BIS removed 51 Indian entities from the list after conducting a congressionally-
mandated review intended to focus the list on entities that made direct and material contributions
to WMD and missile programs. After removing the 51 entities, BIS restructured the list,
moving many subordinate organizations affiliated with the listed Indian entities and of interest to
the United States to a special appendix to the Entity List. The appendix included over 100 Indian
subordinate entities associated with 6 different Government of India agencies.

After the President waived the economic sanctions against India in 2001, BIS removed some
Indian entities from the list and deleted the special appendix, reducing the number of named
Indian entities on the Entity List at that time to 15. 26 As part of this action, BIS grouped
subordinate entities of the Indian Department of Atomic Energy into three types or categories
without listing the specific entities by name. The types are as follows:

•	 Nuclear reactors (including power plants) not under the International Atomic
   Energy Agency safeguards (excluding Kundankulam 1 and 2), 27

•	 Fuel reprocessing and enrichment facilities, and

•	 Heavy water production facilities and their collocated ammonia plants.

According to representatives of the agencies involved in the interagency licensing process,
consolidating these subordinate entities into the three categories without naming them has made
it more difficult to determine whether a specific entity is covered by the list. As a result, U.S.
exporters could inadvertently export certain sensitive or EAR99 items to these entities without
the required license.

We identified two export license applications that were escalated to the Operating Committee, in
part, because of disputes among interagency licensing officials as to whether the Indian entities
on the applications were covered by the Entity List. Both cases involved subordinates of the
Indian Department of Atomic Energy, but the licensing officials could not agree as to whether
the entities were “safeguarded” or “unsafeguarded” nuclear facilities—a key factor in
determining whether the entities are subject to the list.

It should be noted that in one of the two cases, part of the confusion was based on erroneous
information provided by the applicant, who reported on the license application that the ultimate
consignee was a subordinate of a listed entity. When the applicant realized that the ultimate
consignee was not a subordinate of that entity, he asked BIS to modify the license application
accordingly. At this point, according to the OC records, the then-acting OC Chair “suggested
that the application be returned without action because the items listed were EAR99 and were
destined to a non-listed entity.” However, while the ultimate consignee was not a subordinate of

26
  Since that time, an additional 3 Indian entities were removed from the list, making the total now 12. 

27
  According to the International Atomic Energy Agency, safeguards are applied to verify a state’s compliance with 

its agreement to accept safeguards on all nuclear material in all its peaceful nuclear activities and to verify that such

material is not diverted to nuclear weapons or other nuclear explosive devices. 

                                                           14

U.S. Department of Commerce                                                     Final Report IPE-18144

Office of Inspector General                                                                March 2007


a listed entity, the Energy representative at the OC reported that it was a subordinate of the
Indian Department of Atomic Energy and as such, was still covered by the Entity List. State
concurred with this assessment.

Ultimately, it was determined that the ultimate consignees in both cases were “unsafeguarded”
facilities and, as a result, were included on the list. Both license applications were subsequently
rejected. However, these cases call into question how clear the Entity List actually is with regard
to the Indian Department of Atomic Energy subordinates since it led to some confusion during
the interagency licensing review process.

The OC chair acknowledged that consolidating the list has created some confusion both for
exporters and interagency licensing officials, resulting in an occasional dispute about whether a
particular entity was listed. As a result, he prepared a handbook for OC members in early 2006
that includes a section on Indian entries on the Entity List. The section compiles all the Federal
Register notices relating to the addition and deletion of Indian entities on the list, as well as any
licensing policy changes for specific entities since 1998. The chair believes this guidance has
eliminated much of the confusion over which subordinate entities are covered by the list.

The OC chair also provided this guidance to BIS licensing officers who attended an OC training
session in June 2006. The positive feedback he received on the guidance prompted him to put it
on BIS’ shared network in October 2006 so that all BIS’ licensing officers could have access to
it. This document is not available to the public. Thus, while BIS and other U.S. licensing
officials now have clearer information on the specific Indian entities on the Entity List, U.S.
exporters do not. BIS needs to ensure that U.S. exporters clearly understand which Indian
entities are meant to be captured on the Entity List to help ensure export controlled dual-use
items are not inadvertently shipped to these entities without the required license.

Recommendation:

We recommend that BIS specifically list all of the Indian entities that should be captured on the
Entity List, or determine an alternative means to better ensure exporter compliance with export
license requirements.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report, BIS stated that it will review the listing of the Indian
entities on the Entity List to determine how additional information can be provided to exporters.
The planned completion date for this review is April 30, 2007. We acknowledge BIS’ planned
efforts in this area and look forward to receiving a copy of the review results upon completion.




                                                 15

U.S. Department of Commerce                                                              Final Report IPE-18144

Office of Inspector General                                                                         March 2007


II.      BIS’ End-Use Check Program in India Needs to Be Improved

Given India’s importance in U.S. export control matters, BIS assigned one of its export
enforcement agents to New Delhi in November 2004 to conduct end-use checks. This move has
provided BIS with new opportunities to work more closely with the Government of India on
export control matters. However, we identified several weaknesses in BIS’ end-use check
program for India that should be addressed:

      •	 The End-Use Visit Arrangement 28 between the U.S. Department of Commerce and
         India’s Ministry of External Affairs limits the effectiveness of end-use checks.

      •	 While end-use checks involving Indian private sector entities are generally conducted in a
         timely manner, the majority of those involving government or government-affiliated
         entities are not.

      •	 BIS has not set clear and consistent time frames for completing two steps of the end-use
         check process, namely (1) initiation of PSVs upon receipt of required shipping
         documents and (2) notification to the Ministry of External Affairs of end-use check
         requests.

      •	 Two of the India PLCs BIS cancelled in FY 2006 should have been rated “unfavorable”
         per the bureau’s end-use check criteria.

      •	 Although the U.S. government is concerned about diversions of sensitive exports to
         programs involving weapons of mass destruction, BIS did not adequately target PSVs to
         determine whether diversions were occurring.

      Because of the sensitive nature of these findings, we discuss them in Appendix E, classified
      at the CONFIDENTIAL level.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report, BIS stated that it disagreed with some of the report
findings listed above. However, it agreed to take action to implement a number of the
recommendations we proposed. BIS’ specific comments and our response are provided in the
classified Appendix E to this report.




28
 Commerce and India’s Ministry of External Affairs entered into this agreement in September 2004 to establish
procedures for full and timely end-use checks.
                                                       16

U.S. Department of Commerce                                                                 Final Report IPE-18144
Office of Inspector General                                                                            March 2007

III.     BIS Needs to Enhance Its Efforts to Ensure Compliance with License Conditions

The EAR allows BIS or licensing referral agencies to place conditions on an export license when
there are specific concerns about the exporter, end use, or end user. Frequently, the conditions
are the result of lengthy negotiations among the licensing referral agencies. They are an
important part of the interagency export licensing process and offer BIS an additional means for
monitoring certain shipments. BIS monitors export licenses to ensure the holders comply with
all license conditions. This endeavor requires the combined efforts of Export Administration and
Export Enforcement.

There are 55 standard license conditions. Six of these place reporting conditions on exporters or
end users which require them to submit documentation to BIS regarding the shipment (see table
2). 29 A seventh condition—referred to as “Write Your Own”—allows licensing officers to
formulate unique requirements, which may include reporting requirements for either the exporter
or the end user. Licenses with reporting conditions are tracked in the Follow-up Subsystem
within ECASS.

Table 2: License Conditions with Reporting Requirements*
       Condition               BIS                           Requirements
                          Responsible
                              Unit
10–Temporary                              Notify BIS once the licensed item is returned to
                         Export
   Demonstration                          the United States after its temporary demonstration
                         Administration
                                          in another country.
12–Delivery
                         Export
   Verification
                         Administration
   Standard
                                          Provide BIS delivery verification documents.
13–Delivery
                         Export
   Verification
                         Administration
   Triangular
14–Post-Shipment                          Submit a shipper’s export declaration to BIS
                         Export
   Verification                           following the shipment of the item (so that a PSV
                         Enforcement
   (PSV)                                  can be initiated).
17–Aircraft on           Export           Notify BIS after the return of an aircraft on
   Temporary Sojourn Administration       temporary sojourn to a foreign country.
 *The table excludes the “Write Your Own” condition (since there is no standard requirement to be followed) as
 well as the “NDAA PSV” condition (see footnote 30 below).
Source: BIS and OIG




29
  The NDAA for FY 1998 requires BIS to perform PSVs on all high-performance computers with a computing
capability beyond a certain threshold that are exported or reexported to “Tier 3” countries, including China, India,
United Arab Emirates, and Israel. BIS implements this provision through condition 34 which requires exporters to
submit a post-shipment report to BIS on exports of high-performance computers to “tier 3” countries. The act also
requires BIS to submit annual reports to the Congress listing these high-performance computer exports and the
results of the PSVs. License condition 34 is tracked separately from the ECASS Follow-up Subsystem.
                                                         17
U.S. Department of Commerce                                                                Final Report IPE-18144

Office of Inspector General                                                                           March 2007


The OIG previously reported that Export Administration and Export Enforcement did not
consistently monitor licenses with reporting conditions and, therefore, did not ensure exporter or
end user compliance with license conditions. 30 In response to our recommendations, both units
instituted procedures to (1) regularly monitor licenses with reporting conditions that are marked
for follow-up by licensing officers, (2) follow up with exporters to request any necessary
reporting documentation, and (3) provide for the review of technical documentation submitted by
exporters and end users. However, our review found that both Export Administration and Export
Enforcement need to improve implementation of the procedures.

A. Export Administration is not adequately monitoring India licenses with reporting
   conditions

Within Export Administration, the Office of Exporter Services (OExS) is responsible for
monitoring exporter compliance with five of the seven reporting conditions, including Write
Your Own conditions that have reporting requirements. Of these five conditions, four involve
the submission of routine documentation, such as delivery verification, that does not require a
level of technical expertise to verify. If a licensing officer marks a license with any of these four
conditions, the license is automatically entered into the Follow-Up Subsystem, enabling OExS to
follow up with the applicable exporters to ensure that the required documentation is submitted in
accordance with the condition.

By contrast, Write Your Own conditions are unique and for each one, the licensing officer must
determine whether the condition needs to be entered into the Follow-Up Subsystem. Write Your
Own conditions may sometimes require the exporter or end user to provide BIS substantive
reports related to the export, such as maintenance reports or technology control plans (TCPs), 31
which require some level of technical review. For these conditions, the licensing officer must
choose “yes” or “no” in the Write Your Own screen indicating first whether the condition
requires follow-up. If the licensing officer marks “yes” for follow-up, he then must indicate
whether the documentation requires a licensing officer’s technical review. The license is only
entered into the Follow-up Subsystem if the officer marks “yes” for “follow-up” required.

Of the 273 India export license applications included in our sample, only 13 contained reporting
conditions that fell under the responsibility of OExS to monitor. Twelve of the 13 licenses
contained a Write Your Own condition, whereas the 13th license contained a standard reporting
condition requiring the submission of a report summarizing specific details related to
demonstrations of the item. Based on our review of these 13 licenses, licensing officers failed to
mark 5 of them for follow-up to verify that the reporting conditions were met. We also found
that staff from OExS were not fully aware of the reporting conditions they were required to
monitor and were not properly referring noncompliant exporters to Export Enforcement. This
breakdown in Export Administration’s monitoring process might diminish the deterrent effect
that license conditions can have on potential violators.


30
   U.S. Department of Commerce Office of Inspector General (Commerce OIG), June 1999. Improvements Are 

Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488; Commerce OIG, March 2003. 

Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, IPE-15155; Commerce OIG, March

2006. U.S. Dual-Use Export Controls for China Need to be Strengthened, IPE-17500. 

31
   According to BIS, a TCP is a reporting requirement put in place by BIS or Defense in cases when foreign nationals 

are employed at or assigned to security-cleared facilities that handle export-controlled items or information.

                                                        18

U.S. Department of Commerce                                                                  Final Report IPE-18144
Office of Inspector General                                                                             March 2007

Licensing Officers are not properly marking the “follow-up” box in ECASS for India licenses
with Write Your Own conditions

We found that 5 of the 13 licenses that contained a reporting requirement as part of the Write
Your Own condition, were not marked for “follow-up” by the licensing officers. These errors
occurred despite the fact that each export license application was reviewed and signed off by a
countersigner. 32 Because these licenses were not entered into the Follow-up Subsystem, OExS
staff did not know to follow up with the exporters to determine whether they had complied with
the conditions.

Regardless, two exporters provided the required documentation to OExS. However, OExS did
not have any information pertaining to the remaining three licenses. Export Enforcement’s
Office of Enforcement Analysis (OEA) later informed us that two of the remaining three licenses
had been shipped against. However, OEA did not have any records relating to the third
license. 33

In response to similar monitoring weaknesses identified in our March 2006 report on dual-use
export controls for China, the director of OExS issued a memorandum on May 9, 2006,
reminding licensing officers of the importance of marking a license for follow-up. 34 We do not
know whether the May 2006 memo has improved officer compliance with this requirement since
the five licenses not marked for follow-up were processed before this memorandum was issued.
Under the circumstances, we suggest that OExS review a sample of license applications to see
whether licensing officers and countersigners are consistently marking the appropriate licenses
for follow-up. Additionally, OExS should contact exporters for the three licenses that were not
properly marked for follow-up to determine whether they complied with their reporting
requirement.

Licensing officers are not required to review all technical documentation submitted by exporters
or end users pursuant to license conditions

Of the 13 India licenses that had reporting conditions, we found that 10 required submission of
technical documentation but were not marked for and did not receive the licensing officers’
review. Reporting requirements are designed to address particular concerns that either BIS or
other licensing referral agencies had about the parties to the transaction or about the transaction
itself. In these 10 cases, the licensing officers informed us that because Defense had requested
the technical reporting conditions, they did not believe that they were responsible for reviewing
the documentation. While Defense may have requested these conditions, BIS ultimately agreed
to issue the licenses with the conditions.

Two of the 10 licenses had conditions that required the end user or consignee to develop and
implement a technology control plan prior to shipment. Seven licenses required the exporter to
submit a service report on the condition and use of the commodity covered under the license,

32
   A countersigner is typically a division director. The countersigning process was established by BIS to help ensure 

that export license applications are processed appropriately. 

33
   Licenses are generally issued for a period of 2 years and the exporter can ship anytime during that period. 

This license expires in May 2007.

34
   Memorandum from the Director of OExS to BIS Licensing Officers, Review of Technical Reports Submitted

Pursuant to a License Condition, May 9, 2006. 

                                                         19

U.S. Department of Commerce                                                                  Final Report IPE-18144

Office of Inspector General                                                                             March 2007


following any maintenance performed on the equipment. In the last case, the condition required
submission of a biannual report to BIS summarizing specific details related to the demonstrations
of the item. Aside from licensing officer review, there are no BIS processes in place for
reviewing the technical documentation to ensure that exporters or end users comply with such
license conditions.

Prior to May 2006, BIS did not require any form of technical review of the documentation
submitted to ensure that it meets the requirements of the condition. In response to similar
concerns in our March 2006 report on export controls for China, the May 9, 2006, OExS
memorandum additionally required licensing officers to review technical documentation
submitted pursuant to a license condition if the documentation was requested because of
concerns with the transaction. However, the memorandum excludes those licenses involving
reporting conditions placed on a license by the Defense Department unless BIS licensing officers
also have a concern with the transaction.

With regard to reporting requirements placed on a license as a condition of approval by Defense,
BIS reported that Defense has the ability to identify technical reports it wishes to review and BIS
provides those reports to them accordingly. BIS further reported that if Defense identifies a
problem during its review of the reports, DOD will notify BIS of a compliance issue and raise
this in future reviews of license applications involving the applicable exporter. The Acting
Under Secretary for Industry and Security stated that he did not know whether Defense actually
requests copies of technical reports required as part of license conditions. Based on our
discussions with two of the licensing officers who were responsible for several of the licenses
referenced above that had technical reporting conditions, it appears that these reports are not
routinely provided to Defense.

BIS has the authority to administer and enforce the EAR and, as such, is ultimately responsible
for monitoring and enforcing all conditions placed on a dual-use license. Without knowing
whether an exporter or end user is fully compliant with license conditions, BIS cannot make
informed decisions on future license applications involving the same parties or take appropriate
enforcement action on the current license. BIS should revise its procedures with respect to the
review of technical documentation by licensing officers to require that all technical
documentation requested by any licensing agency, and included in an approved license, be
examined by the appropriate licensing officer upon submission by the exporter to ensure
compliance with the reporting conditions.

OExS staff are not always aware of the reporting conditions they are required to monitor

Our review of the 13 licenses with reporting conditions also revealed that OExS staff (1)
prematurely closed out two India licenses that required reporting documents from the exporter or
end user, and (2) failed to forward shipping documentation received for one license to OEA.

•	 Licenses prematurely closed out. In the first case, 35 OExS staff did not have any
   information documenting whether the license was shipped against and could not explain why
   it was prematurely closed out of the Follow-up Subsystem. However, OEA officials

35
 This license required the submission of a delivery verification report, which is provided to BIS after delivery of
goods, and a maintenance report, provided when maintenance is performed on equipment.
                                                         20

U.S. Department of Commerce                                                             Final Report IPE-18144

Office of Inspector General                                                                        March 2007


     apparently had information indicating that the goods had been exported. In the second
     case, 36 OExS staff had information relating to the date the goods were shipped, but they
     could not explain why they closed the license out in the Follow-Up Subsystem before
     receiving the required documentation. According to BIS procedures instituted in early 2005
     in response to a recommendation from our March 2003 export enforcement report, 37 OExS
     staff must obtain all required documentation from the exporter or end user before closing out
     a license.

•	 Failure to forward shipping documentation to OEA. OExS staff failed to forward
   shipping documentation they received for one license to OEA so that a PSV could be
   initiated. This case involved a shipper’s export declaration and a post-shipment report, both
   of which should have been submitted directly to OEA by the exporter, but were mistakenly
   submitted to OExS after the May 2006 shipment. According to a memorandum issued by the
   director of OExS in March 2006, OExS staff must forward misrouted shipper’s export
   declarations and all relevant documentation to OEA within 48 hours of receipt of those
   documents. An OExS employee said that she did not forward the shipping documentation to
   OEA because she believed monitoring the license conditions in this case was the
   responsibility of OExS. But if OEA does not receive shipping documents, it has no way of
   knowing whether exporters have complied with the license condition and cannot initiate a
   PSV.

BIS should ensure that OExS staff understand which license conditions they are responsible for
monitoring and when they should forward documentation to OEA. In addition, OExS should
reopen the two licenses that were prematurely closed out of its system and contact the exporters
to obtain the documentation needed to fulfill the reporting requirements.

OExS staff are not referring non-compliant exporters to OEE

According to BIS’ guidance, OExS staff are required to follow up with exporters that are
noncompliant with reporting conditions prior to closing out the license in the Follow-Up
Subsystem. The procedures further state that if exporters are non-responsive to requests for
information, OExS staff should refer them to the Office of Export Enforcement (OEE).
However, in the two cases of noncompliance, both exporters had shipped against their licenses,
but neither one had provided BIS all of the required documentation as of October 2006. We
brought these cases to the attention of OExS staff members during the course of our review, but
they were not referred to OEE. OExS should immediately refer any noncompliant exporters to
OEE.

Recommendation:

BIS should, at a minimum, take the following actions to improve its monitoring of license
conditions:



36
 This license required the submission of a demonstration report to BIS every 6 months for a period of 2 years.
37
 Commerce OIG, March 2003. Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, IPE­
15155.
                                                       21

U.S. Department of Commerce                                                             Final Report IPE-18144

Office of Inspector General                                                                        March 2007


•	 Determine why there are persistent breakdowns in BIS’ process for monitoring license
   conditions.
•	 Review a sample of license applications to ensure licensing officers and countersigners are
   properly marking licenses for follow-up.

•	 Contact exporters for the three licenses we identified as not marked for follow-up to
   determine whether the exporters complied with reporting requirements.

•	 Amend procedures to require licensing officers to review all technical documentation
   submitted by exporters or end users to ensure their compliance with the conditions.

•	 Ensure that relevant OExS staff know which license conditions they are responsible for
   monitoring and the steps they should be taking to follow up on license conditions, including
   referral to OEE, as appropriate.

•	 Reopen the two licenses that were closed by OExS and contact the exporters regarding
   reporting requirements.

•	 Refer all noncompliant exporters to the Office of Export Enforcement.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report, BIS stated that it is still reviewing our
recommendations pertaining to Export Administration’s monitoring of license conditions. The
planned completion date for this review is April 30, 2007. We look forward to reviewing BIS’
response when completed.


B. Export Enforcement needs to improve its monitoring and enforcement of India licenses
   with condition 14

Within Export Enforcement, OEA is responsible for monitoring licenses marked with the
remaining two reporting conditions–the submission of shipper’s export declarations, which is
referred to as condition 14, and post shipment reports on high-performance computer exports to
certain countries, referred to as condition 34. 38 Licenses with condition 14 require a PSV on a
specific foreign entity following the first shipment made against the license. Within 30 days of
shipment, exporters are required to submit a copy of the shipper’s export declaration directly to
OEA, which then initiates the PSV to confirm a commodity’s stated end-use

Our review of the 24 India licenses from our sample that contained condition 14 revealed that
OEA is not fully adhering to its guidance for monitoring licenses with condition 14. Condition
14 is one of the most critical conditions placed on a license because either the interagency

38
  Since licenses with condition 34 are tracked separately from Export Enforcement’s Conditions Follow-up
Subsystem, we focused our review on licenses with condition 14. However, some of the licenses with condition 14
in our sample also contained condition 34.
                                                      22

U.S. Department of Commerce                                                                Final Report IPE-18144

Office of Inspector General                                                                           March 2007


licensing agencies or export enforcement officials decided that a PSV was needed to determine
whether the goods or technology were actually being used in accordance with that license.
However, it should be noted that even when condition 14 is imposed on a license, the PSV might
not occur in all cases. For example, if there is no export against the license or if the agency
requesting this condition changes its mind (e.g., the item subsequently becomes decontrolled),
the PSV may be cancelled. One of the 24 PSVs in our sample was cancelled because the item
was decontrolled after the license was issued.

Of the reviewed India licenses that contained condition 14, several exporters submitted their
shipping documents to BIS well after the established time frame, which in some cases hinders
BIS’ ability to detect possible diversions or violations of license conditions. In addition, OEA
recommended approval of additional licenses to exporters that had not fully complied with
condition 14 reporting requirements on previous licenses and did not refer noncompliant
exporters to OEE for appropriate action.

Export Enforcement management is unable to determine whether OEA analysts and supervisors
are fully adhering to OEA’s follow-up procedures

We determined that exporters submitted their shipper’s export declarations after the established
30-day deadline in 11 of the 24 cases—between 12 and 1,158 days beyond the deadlines (see
figure 6). In response to our March 2003 export enforcement report, BIS issued procedures
requiring its staff to follow up at least twice with the exporter on all licenses with condition 14:
first, 1 year after the license’s date of issue and then within 30 days of the date of license
expiration to see whether shipments have occurred. However, we were unable to determine if
OEA followed these procedures in these cases. Specifically, records in OEA’s electronic follow-
up tickler system for 8 of the 11 licenses 39 in which exporters submitted their shipper’s export
declarations late did not clearly show what actions were taken to monitor compliance. Seven of
the 8 records only showed the date when the follow-up tasks were assigned to an analyst and not
what actions the analyst took. The remaining record did not provide any information about OEA
follow-up.

Given that the acting director for OEA’s South Asia and Europe Division was new to this
position at the time of our review and the fact that OEA’s follow-up tickler system did not
clearly indicate what follow-up action, if any, was taken in these cases, she could not confirm if
analysts followed the prescribed procedures for these eight cases. Since only OEA supervisors
have access to the Follow-up Subsystem, it was their responsibility to record what actions were
taken by the analysts in these cases. However, the acting director for OEA’s South Asia and
Europe Division suggested that supervisors would be better able to hold analysts accountable if
the analysts had access to the Follow-up Subsystem so that they could record the actions they
took to monitor these cases.




39
  One exporter was under investigation by OEE at the time of our review, so we did not pursue our inquiry related to
this license. While the remaining two licenses had been shipped against, they were granted in March 2006 and, as
such, had not reached the one-year mark requirement for follow-up as called for in OEA’s guidance.
                                                        23
U.S. Department of Commerce                                                           Final Report IPE-18144

Office of Inspector General                                                                      March 2007





Figure 6: Exporters Noncompliant with Condition 14 Reporting Requirement

                          11       12
                          10       12
                           9        38
                           8            48
    Number of Exporters




                           7             106
                           6                 170
                           5                       232
                           4                             312
                           3                                    521
                           2                                             786
                           1                                                              1158

                               0             200          400   600     800    1000    1200        1400
                                    Number of Days SEDs Were Received Beyond the 30-day
                                                       Requirement

Source: BIS

OEA is not denying noncompliant exporters future licenses or referring them to OEE per its
guidance

OEA’s procedures require its analysts to (1) refer noncompliant condition 14 exporters to OEE
for possible investigation, and (2) recommend denial of any subsequent license applications
involving a party who has not complied with a previous license condition. We found also that at
least 6 of the 11 noncompliant exporters in our sample received additional licenses after the 1­
year deadline established by OEA for its analysts to follow up with exporters to determine
compliance with condition 14.

In addition, only 2 of the 11 exporters that submitted their shipping documents to OEA after the
established deadline were referred to OEE. The director of OEA informed us that while he was
aware of the other 9 noncompliant exporters, he made the decision not to make the referrals. He
and the acting director for the South Asia and Europe Division stated that despite BIS’ guidance,
they generally do not refer these types of cases to OEE because they believe these cases would
not be a priority.
We discussed this matter with the director of OEE, and he stated that OEA should refer these
types of cases. He stressed that these violations should be examined so that they can consider
appropriate enforcement action (e.g., a warning letter or fine).

BIS needs to ensure that its analysts and supervisors closely monitor licenses at the 1-year mark
and within 30 days of license expiration to prevent additional licenses from being issued to
exporters that do not comply with condition 14, and it should hold those exporters accountable.


                                                                  24

U.S. Department of Commerce                                                   Final Report IPE-18144

Office of Inspector General                                                              March 2007





Recommendation:

BIS needs to review Export Enforcement’s process of monitoring and enforcing license
condition 14 and take the following actions:

•	 Require OEA analysts and supervisors to closely monitor licenses at the specified follow-up
   time frames, record their monitoring activities in the Conditions Follow-up Subsystem, and
   recommend that exporters who do not comply with condition 14 be denied additional
   licenses.

•	 Refer all noncompliant exporters to the Office of Export Enforcement.

•	 Hold exporters accountable for noncompliance with condition 14 through appropriate
   enforcement action.



BIS Response to OIG Draft Report and OIG Comments

In its written response to our draft report and our recommendation addressing Export
Enforcement’s license monitoring and enforcement efforts, BIS stated that it is still reviewing the
first part of this recommendation to determine whether it can be implemented using the current
license processing system (ECASS), or if some alternative approach is necessary. We look
forward to learning of BIS’ decision upon completion of its review.

As for the second part of our recommendation related to BIS’ adherence to its own guidance on
denying licenses to those exporters who do not comply with condition 14 and/or referring
noncompliant exporters to OEE, BIS stated that this requirement needs modification.
Specifically, BIS reported that it put this requirement into place in October 2003 in response to a
previous OIG recommendation, but found that there were many factors involved that needed to
be considered before determining whether subsequent licenses should be denied or referrals
made to OEE based on a late filing. As such, BIS stated that in cases where OEA believes it is
appropriate to refer an investigative lead to OEE, it does so while also screening the party
involved and recommending against issuance of any license until the OEE investigation has been
concluded.

While we agree that some flexibility might be warranted (e.g., if the exporter is just a few days
late in providing the required shipping documentation) in determining whether future licenses
should be denied or referrals made to OEE based on a late filing, we found no evidence in the
case files to indicate any type of analysis was conducted to determine whether or not the late filer
should be held accountable for not fully complying with the license condition. In fact, as
discussed in our report, the director for OEA and the acting director for the South Asia and
Europe Division stated that they generally do not refer these types of cases to OEE because they
believe these cases would simply not be a priority. Nonetheless, the director of OEE informed us
during our review that these types of cases should be referred to OEE so that they can consider

                                                25

U.S. Department of Commerce                                                  Final Report IPE-18144

Office of Inspector General                                                             March 2007


appropriate enforcement action, such as a warning letter. Therefore, we reaffirm our
recommendations on these matters and ask that BIS address them in its action plan.

With regard to the part of our recommendation about holding exporters accountable for
noncompliance with condition 14 through appropriate enforcement action, BIS’ response stated
that its Office of Chief Counsel and OEE, as well as the Department of Justice, determine the
appropriate investigation and prosecution for filing documentation late, based on all the facts
present. While we agree that these three entities, as appropriate, should make the decision as to
what type of investigation and/or prosecution is appropriate on any given case, as stated above,
none of the nine cases highlighted in our report were referred to these offices so that an
appropriate decision could be made. As such, we reaffirm this part of our recommendation on
this matter and ask that BIS address it in its action plan.

Finally, BIS’ response noted that the 24 licenses from our sample did not all contain condition
14. We disagree. Our review of these licenses indicated that all 24 contained the standard
condition 14 language:

               After the first shipment is made against this license, send one copy
               of your shipper’s export declaration, or automated export system
               (AES) record, bill of lading or airway bill to the Department of
               Commerce within 30 days of the date of export. Indicate the
               license number on each document. Send these documents to the
               Bureau of Industry and Security, Office of Enforcement Analysis,
               Room 4065, 14th Street and Constitution Avenue, N.W.,
               Washington, D.C. 20230. These documents must be received by
               certified mail or via a private courier. They may not be faxed.

While the licensing officers for 2 of the 24 licenses had improperly coded this condition in
ECASS as a “Write Your Own” condition instead of condition 14, the intent of the condition was
clearly for a PSV to be conducted. In addition, the exporters in these cases were still required to
submit the appropriate shipping documents in accordance with the license terms.




                                                26

U.S. Department of Commerce                                                     Final Report IPE-18144

Office of Inspector General                                                                March 2007


                 SUMMARY OF UNCLASSIFIED RECOMMENDATIONS 


We recommend that the Acting Under Secretary for Industry and Security ensure that the
following actions are taken:

1.	   Specifically list all of the Indian entities that should be captured on BIS’ Entity List, or
      determine an alternative means to better ensure exporter compliance with export license
      requirements (see page 13).

2.	   Improve Export Administration’s license monitoring efforts by:
      a.	   Determining why there are persistent breakdowns in BIS’ process for monitoring
            license conditions (see page 18).
      b.	   Reviewing a sample of license applications to ensure licensing officers and counter-
            signers are properly marking licenses for follow-up (see page 18).
      c.	   Contacting exporters for the three licenses cited in this report that licensing officers
            did not mark for follow-up to determine exporters’ compliance with reporting
            requirements (see page 18).
      d.	   Amending BIS procedures to require licensing officers to review all technical
            documentation submitted by exporters or end users to better ensure their
            compliance with the conditions (see page 18).
      e.	   Ensuring that relevant Office of Exporter Services staff know which license
            conditions they are responsible for monitoring and the steps they should be taking
            to follow up on license conditions, including referral to the Office of Export
            Enforcement, as appropriate (see page 18).
      f.	   Reopening the two licenses that were closed by Office of Exporter Services staff
            and contacting the exporters regarding reporting requirements (see page 18).
      g.	   Referring any noncompliant exporters to the Office of Export Enforcement (see
            page 18).

3.	   Improve Export Enforcement’s license monitoring and enforcement efforts by:
      a.	   Requiring Office of Enforcement Analysis analysts and supervisors to closely
            monitor licenses at the specified follow-up time frames, recording their monitoring
            activities in the Conditions Follow-up Subsystem, and recommending that exporters
            who do not comply with condition 14 be denied additional licenses (see page 22).
      b.	   Referring all noncompliant exporters to the Office of Export Enforcement (see page
            22).
      c.	   Holding exporters accountable for noncompliance with condition 14 through
            appropriate enforcement action (see page 22).




                                                 27

U.S. Department of Commerce                                                Final Report IPE-18144

Office of Inspector General                                                           March 2007


                                        APPENDIXES

                                   Appendix A: Acronyms

     ACEP 	                   Advisory Committee on Export Policy
     BIS 	                    Bureau of Industry and Security
     CCL                      Commerce Control List
     CIA       	              Central Intelligence Agency
     EAR         	            Export Administration Regulations
     ECASS 	                  Export Control Automated Support System
     ECCN 	                   Export Control Classification Number
     ECO         	            Export Control Officer
     FY      	                Fiscal Year
     HTCG 	                   High Technology Cooperation Group
     IPE      	               Inspections and Program Evaluations
     NDAA 	                   National Defense Authorization Act
     NLR         	            No License Required
     NSSP 	                   Next Steps in Strategic Partnership
     OC      	                Operating Committee
     OEA 	                    Office of Enforcement Analysis
     OEE 	                    Office of Export Enforcement
     OExS 	                   Office of Exporter Services
     OIG 	                    Office of Inspector General
     PLC        	             Pre-License Check
     PSV        	             Post-Shipment Verification
     TCP        	             Technology Control Plan
     WINPAC	                  Center for Weapons Intelligence, Nonproliferation, and
                              Arms Control
     WMD             	        Weapons of Mass Destruction




                                                A-1 

Final Report IPE-18144

           March 2007





                                                                                                    0                                     9                                              39 Days                                  90
                                                                                                   Pre-License                      Approve, Deny, or                              Approve, Deny, or                        Approve, Deny, or
                                                                                                   Check (PLC)                           Return                                         Return                                   Return
                              Appendix B: Interagency Dual-Use Export Licensing Process




                                                                                              BIS Initial
                                                                                              Screening/                                      Not Referred                                                                                   Post
                                                                                                                  Enforcement                                                                                                              Shipment
                                                                                              Technical
                                                                                                                    Review                                                                                                                Verification
                                                                                               Review
                                                                                                                                                                     CIA                                                                    (PSV)
                                                                                                                                                                 Information
                                                                                             (Registration
                                                                                                                                       Decision                                         Decision
                                                                                                  of
                                                                                                                                         (1)                                              (2)
                                                                                             Application)




                                                                                                                                                                                                                                                                                               B-1 

                                                                                                                   Initial Case                                Referral Process                                     Dispute Resolution Process
                                                                                                                    Analysis                                         CIA
                                                                                                                                                                  Defense                                   OC => ACEP => EARB => President
                                                                                                                                                                   Energy                                   (3)    (4)     (5)       (6)
                                                                                                                                                                   Justice
                                                                                                                                                                    State
U.S. Department of Commerce




                                                                                                                                                                                                                                                         Source: Office of Inspector General
                                                                                                                                                                    PLC
Office of Inspector General




                                                                                          (1) On or before day 9 of registration, BIS must refer the application or issue, deny, or return without action (RWA) the license.
                                                                                          (2) On or before day 39 of registration, the referral agencies must provide BIS with a recommendation.
                                                                                          (3) On or before day 40 of registration, the application can be referred to the Operating Committee, which has 14 days to make a recommendation.
                                                                                          (4) On or before day 59 of registration, the application can be referred to the Advisory Committee on Export Policy, which has 11 days to make a decision.
                                                                                          (5) On or before day 75 of registration, the application can be sent to the Export Administration Review Board, which has 11 days to make a decision.
                                                                                          (6) On or before day 90 of registration, the application can be escalated to the President.
                                                                                          Executive Order 12981 provides several circumstances for stopping these time frames, such as obtaining additional information from the applicant.
U.S. Department of Commerce                                                                   Final Report IPE-18144 

      of          General                                                                                March 2007 


         Appendix C: BIS Management Response to OIG Draft Report-Unclassified Version



                                                                                                      OF COMMERCE
                                                                       Under Secretary for Industry and Security
                                                                       Washington.   2023230

                                                                        March 23,2007




                 MEMORANDUM FOR Johnnie Frazier
                                Inspector General

                 FROM:                                  Acting

                 SUBJECT:                 Audit Report No.       144
                                               Report Date: February 23,2007
                                          Audited Entity: Bureau of Industry and Security


                 Attached are the Bureau of Industry and Security's comments addressing the        of the
                 Inspector General's draft report entitled:   Dual Use         Controls for India Should
                 Continue to Be Closely Monitored. Draft Inspection       No.              February 2007.

                 The response consists of two parts. First are comments on the unclassified report's text and
                 recommendations, followed by         response to the report's classified text and
                 recommendations.

                 Attachment
U.S.Department of Commerce                                                                           Final Report ZPE-18144 

     o f Inspector General                                                                                      March 2007 





                                                           COMMENTS:

                      U.S. Dual Use Export Controls for India Should Continue to Be Closely Monitored, 

                                   Draft Ins~ectionR e ~ o rNo.
                                                            t IPE-18144, Februarv 2007 



               Comments on the Report's Unclassified Text:

              p. ii         For reasons discussed in the classified section, BIS believes that India has fulfilled its
                            commitments under the NSSP.

              p. iii        In the classified section of the report, BIS explains the reasons for its disagreements
                            with certain of the report's findings as stated on this page.

              p. iv         For reasons discussed in the classified section of the report, BIS believes that
                            performing 8 of 24        within 100 days of shipment is not a disadvantage.

              p. 14         For reasons discussed in the classified section, BIS believes that India has           its
                            commitments under the NSSP.

               p.           There were two cases in the Operating Committee (OC) in which there was confusion
                            about whether, or how, a proposed ultimate consignee was on the Entity List. In one
                            of the two cases, the confusion was based on erroneous information provided by the
                            applicant.

               p. 17        In the classified section of the report, BIS explains the reasons for its disagreements
                            with certain of the report's findings as stated on this page.

               pp. 20-21 On a monthly basis, Defense identifies reports it wishes to review and Commerce
                         provides those reports. If Defense requested copies of technical reports it required as
                         license conditions, thosc rcports would be provided to Defense for its review. Thus,
                         there is a process for Defense to request reports it required in license conditions. If its
                         review of those reports were to          an issue, it would notify Commerce as a
                         compliance issue and raise this in any future license application involving the
                         exporter.

               p. 23        The characterizationof condition 14 as "one of the most critical conditions"because
                            it means that the interagency has decided that a post-shipment verification check
                            (PSV) was needed, reflects a misunderstanding of the PSV process, as well as the
                            purpose of condition 14. License condition 14, which specifically requests the
                            licensee to submit shipping documents to BIS within 30 days of the first shipment, is
                            used in instances where Export Enforcement                review documentation and
                            initiate a PSV at a later point in time. It can also be imposed on the licensee by the
                            licensing officer        another agency requires that a PSV be conducted as a
                            condition of approval. However, even when condition 14 is imposed, the PSV might
                            not occur, for example, if there is no export against the license or if the agency


                                                                  1
U.S. Department of Commerce                                                                       Final Report IPE-18144 

      of          General                                                                                    March 2007 





                        requesting this condition cancels the request. Commerce has the authority to initiate a
                        PSV at any time, regardless of whether it is included as a condition of the license or
                        whether the license contains condition 14, and independent of the interagency
                        process. Indeed, not all PSVs require condition 14, and not all licenses with
                        condition 14 result in PSVs. Of the 24 India licenses containing PSVs noted in the
                        report, 10 either did not contain condition 14 or the condition was not placed on the
                        license by the interagency, but by an OEA analyst.

            Response to the Report's Recommendations:

            Recommendation 1: 	Specifically list all Indian entities that should be captured on BIS' Entity
                               List, or determine an alternative means to better ensure exporter
                               compliance with export license requirements (see page 14).

            BIS Response:

            BIS will review the listing of the Indian entities on the Entity List to determine how additional
            inforination can be provided to exporters. The planned completion date for this review is
            April 30,2007.

            Recommendation 2: 	 Improve Export Administration's license monitoring efforts by:

                   a       Determine why there are persistent breakdowns in BIS' process for monitoring
                           license conditions (see page 19).
                   b       Reviewing a sample of license applications to ensure licensing officers and
                           counter-signersare properly marking licenses for follow-up (see page 19).
                   c	      Contacting exporters for the three licenses cited in this report that licensing
                           officers did not mark for follow-up to determine exporters' compliance with
                           reporting requirements (see page 19).
                   d	      Amending BIS procedures to require licensing officers to review all technical
                           documentation submitted by exporters or end users to better ensure
                           compliance with the conditions (see page 19).
                   e	      Ensuring that relevant         of Exporter Services staff know which license
                           conditions they are responsible for monitoring and the steps they should be taking
                           to follow up on license conditions, including referral to the Office of Export
                           Enforcement, as appropriate (see page 19).
                   f       Reopening the two licenses that were closed by Office of Export Services staff
                           and contacting the exporters regarding reporting requirements (see page 19).
                   g       Referring any noncompliant exporters to the Office of Export Enforcement (see
                           page 19).

            BIS Response:

            BIS is reviewing these seven recommendations. The              conipletion date for this review is
            April 30,2007.



                                                             2
Department of Commerce                                                                          Final Report IPE-18144 

 of          General                                                                                       March 2007 





         Recommendation 3: Improve Export Enforcement's license monitoring and enforcement
                                efforts by:

            a. 	 Requiring Office of Enforcement Analysis analysts and supervisors to closely monitor
                 licenses at the specified follow-up time frames, recording their monitoring activities in
                 the Conditions Follow-up Subsystem, and recommending that exporters who no not
                 comply with condition 14 be denied              licenses (see page 23).

             b. 	 Referring all noncompliant exporters to the Office of Export Enforcement (see page 23.)

            c. 	 Holding exporters accountable for noncompliance with condition 14 through appropriate
                 enforcement action (see page 23).

         BIS Response:

         a.     BIS is reviewing the first part of this recommendation to determine if it can be
         implemented using the current license processing system (ECASS), or if some alternative
         approach is necessary.

         The second part of the recommendation, to deny licenses to those exporters who do not comply
         with condition 14, requires modification. BIS put this requirement into place in October 2003 in
         response to a previous OIG recommendation, but found that there were many factors involved
         that needed to be considered before BIS should determine to deny subsequent licenses. Thus,
         BIS believes it is more appropriate to consider all of the factors related to a late filing prior to
                 to a criminal investigator. In cases where the Export Compliance Analyst believes it is
         appropriate to refer an investigative lead to OEE, OEA does so and also screens the party
         involved and recommends against issuance of any license until the           investigation has been
         concluded.

         b.    As explained above,              considers all of the factors related to a late filing and, if
         circumstances warrant, refers the matter to OEE for investigation.

         c.           Office of Chief Counsel, Office of Export Enforcement, and the Department of
         Justice determine the investigation and prosecution that is appropriate for filing documentation
         late, based on all facts present.




                                                            3
